OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HAITI’S
COMMUNITY HEALTH AND
AIDS MITIGATION PROJECT
AUDIT REPORT NO. 1-521-12-002-P
DECEMBER 30, 2011




SAN SALVADOR, EL SALVADOR 

Office of Inspector General


December 30, 2011

MEMORANDUM

TO:    	       USAID/Haiti Mission Director, Carleene Dei

FROM: 	        Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	      Audit of USAID/Haiti’s Community Health and AIDS Mitigation Project
               (Report No. 1-521-12-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft and have included the comments in their
entirety in Appendix II, along with the comments received from OIG internal review.

The report contains 14 recommendations to improve USAID/Haiti oversight of the Community
Health and AIDS Mitigation Project. On the basis of actions proposed by the mission, we
determined that management decisions have been reached on Recommendations 1, 2, 3, 4, 6,
7, 8, 11, 12, and 13. Please provide the Audit Performance and Compliance Division in the
USAID Office of the Chief Financial Officer with the necessary documentation to achieve final
action.

Management decisions were not reached on Recommendations 5, 9, 10, and 14. Please
provide written notice within 30 days of any actions planned or taken to implement these
recommendations.

I want to express my appreciation for the cooperation and courtesy extended to my staff during
the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. (503) 2501-2999—Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 4 


     Partner and USAID Did Not Assess How Many Community Service Delivery
     Points Were Needed ................................................................................................... 4

     Partner Did Not Implement Capacity-Building Strategies for Subrecipients ............... 5

     Performance Indicators and Reported Results Provide Limited Information on
     Project Progress.......................................................................................................... 6 


     Partner Did Not Standardize Monitoring and Evaluation Among Community
     Service Delivery Points ............................................................................................... 7

     USAID and Partner Did Not Ensure Proper Approvals of Subawards ........................ 8

     Partner Did Not Establish Memorandums Between Community Service Delivery
     Points and Health Facilities ......................................................................................... 9

     Partner Did Not Implement Its Environmental Plan or Develop a Procurement
     Plan for the Project.................................................................................................... 11 


Evaluation of Management Comments ....................................................................... 13 


Appendix I – Scope and Methodology ........................................................................ 17 


Appendix II – Management Comments ....................................................................... 19 



Abbreviations

The following abbreviations appear in this report:
ADS                  Automated Directives System
AO                   agreement officer
AOTR                 agreement officer’s technical representative
CBO                  community-based organization
CRS                  Catholic Relief Services
FHI                  Family Health International
FY                   fiscal year
ICC                  International Child Care
NGO                  nongovernmental organization
PDSC                 community service delivery point
PMP                  performance monitoring plan
RIG                  Regional Inspector General
SUMMARY OF RESULTS 

USAID/Haiti’s Community Health and AIDS Mitigation Project was designed to build on
synergies among HIV/AIDS and tuberculosis prevention, maternal and child health, family
planning, nutrition, and livelihood opportunities efforts to deliver a full spectrum of services at
the community level. This comprehensive approach was expected to strengthen community
HIV/AIDS care by eliminating the stigma that often accompanies HIV/AIDS services. Patients
access project services through community service delivery points (in French, points de
déliverance des services communautaires, or PDSCs).

To implement the project, USAID/Haiti signed a 5-year, $65 million cooperative agreement with
Family Health International (FHI) from May 1, 2009, to April 30, 2014. FHI implements this
project with two key partners—Catholic Relief Services (CRS) and International Child Care
(ICC)—both of which have many years of experience in Haiti. As of July 2011, obligations and
disbursements under the project totaled approximately $20.5 million and $18.1 million,
respectively.

FHI designed implementation activities around two primary objectives: (1) to increase health
sector capacity and (2) to expand access and availability to integrated care and support
services. Specific project targets for the 5-year project include:

   80 PDSCs established
   669 individuals trained to provide integrated health services
   40,000 people living with HIV/AIDS enrolled in community care and support services
   75,000 orphans and vulnerable children enrolled in community care and support services
   27,600 people living with HIV/AIDS served through the PDSCs
   49,500 orphans and vulnerable children served through the PDSCs
   2,500 women enrolled in activities to prevent mother-to-child transmission of HIV

The Regional Inspector General/San Salvador (RIG/San Salvador) conducted this audit to
determine whether the activities under USAID/Haiti’s Community Health and AIDS Mitigation
Project were achieving the goal of improving the health and quality of life of vulnerable families
and people living with AIDS, in accordance with the Government of Haiti’s strategic plan to
combat HIV/AIDS.

The audit found that the project was making some progress toward the intended objectives.
The project had established 44 PDSCs, trained over 250 individuals to deliver integrated health
services, and served 6,535 people living with HIV/AIDS and 11,542 orphans and vulnerable
children. The project had also served its targeted population by providing school fees for
orphans and vulnerable children and vocational and literacy training and transportation fees for
beneficiaries. In addition, FHI played a key role during the 2010 cholera outbreak by proving
safe water and hygiene kits to beneficiaries.

Despite the positive findings noted above, the audit identified areas for improvement to further
the effectiveness of USAID/Haiti’s project. Specifically, the audit noted the following problems:

   Partner and USAID did not assess how many PDSCs were needed (page 4).



                                                                                                 1
	 Partner did not implement capacity-building strategies for subrecipients (page 5).

	 Performance indicators and reported results provide limited information on project progress
   (page 6).

	 Partner did not standardize monitoring and evaluation among PDSCs (page 7).

	 USAID and partner did not ensure proper approvals of subawards (page 8).

	 Partner did not establish memorandums between PDSCs and health facilities (page 9).

	 Partner did not implement its environmental plan or develop a procurement plan for the
   project (page 11).

To help USAID/Haiti improve its oversight over the project, RIG/San Salvador makes the
following recommendations:

1. 	 Complete and document a needs assessment and cost-benefit analysis to determine the
     correct number and appropriate location for the PDSCs (page 4).

2. 	 After conducting the assessment and analysis, modify the agreement with FHI in writing to
     reflect the changes in the number of PDSCs and other major project targets, and adjust the
     budget and resources accordingly (page 5).

3. R
   	 equire FHI to implement capacity-building activities, with particular emphasis on
   sustainability, leadership, management, lessons learned, and monitoring and evaluation, as
   defined in the agreement (page 5).

4. 	 Instruct FHI in writing to implement best practices and lessons learned across all PDSCs
     (page 6).

5. 	 Review existing indicators and activity reporting in writing, to determine whether the mission
     is receiving consistent, accurate, and useful information regarding the project's status and
     impact. If not, the mission should develop and implement a corrective action plan (page 6).

6. 	 In collaboration with the Ministry of Public Health and Population, evaluate the three registry
     books to determine what modifications they need to track enrollees effectively, and make
     the modifications to the books (page 8).

7. 	 Direct FHI in writing to develop standardized procedures and documentation to implement at
     each of the PDSCs to assist in tracking and reporting information on indicators (page 8).

8. 	 Direct FHI in writing to conduct data quality assessments, as described in the agreement,
     and provide data validation monthly and quarterly, along with documentation of site visits
     performed, issues identified with data validation, actions taken to resolve issues, and
     training conducted on monitoring and evaluation (page 8).

9. 	 Review each subaward issued by FHI to confirm that the subaward received appropriate
     review and approval by an authorized official in accordance with the agreement and relevant



                                                                                                  2
   guidance and document the results. In addition, have the Office of Financial Management
   conduct payment verification of these subawards (page 9).

10. Review existing contracting officer’s technical representative and agreement 	officer’s
    technical representative designation letters to confirm that the letters provide appropriate
    authorities and approval thresholds for subawards, and document results (page 9).

11. Work with FHI to establish memorandums of understanding between health facilities and
    PDSCs, detailing roles and responsibilities, expectations, and monitoring channels
    (page 10).

12. Reevaluate the environmental plan to determine what is applicable to PDSCs, and
    document results; complete the environmental assessment form for each PDSC; and
    establish and implement a process to verify that any future environmental assessments are
    conducted where needed (page 11).

13. Direct FHI in writing to train key personnel to implement the project’s environmental plan
    (page 12).

14. Require FHI to develop	 a procurement plan that is approved by the mission and
    implemented in the project (page 12).

Detailed findings follow. The audit scope and methodology are described in Appendix I.
Appendix II contains management comments, and our evaluation of management comments is
on page 13.




                                                                                              3
AUDIT FINDINGS 

Partner and USAID Did Not Assess
How Many Community Service
Delivery Points Were Needed
According to USAID’s Automated Directives System (ADS) 201.3.8, USAID missions should
devise foreign assistance programs and activities to have the greatest possible development
impact given available resources, including those of their development partners.

As part of FHI’s project approach, the establishment and development of community service
delivery points (PDSCs) are critical to project success. FHI and its partners planned to identify
80 PDSC sites in selected communities and provide each with the equipment and storage
facilities required. Community-based organizations (CBOs) or health centers were to oversee
the PDSC sites. As of August 1, 2011, FHI had 44 operating PDSCs, more than 55 percent of
the overall target, with another 5 expected to be open in the near future.

The audit determined, however, that neither USAID/Haiti nor FHI could provide its rationale or
basis for the target number of 80 PDSCs. Enrollment at some PDSCs has been much lower
than anticipated, and in some areas, several PDSCs were competing for the same targeted
population. For example, in Artibonite Department, an official at one PDSC stated that its
enrollment of beneficiaries has declined because the department now has five competing
PDSCs. FHI was struggling to manage its existing PDSCs, did not maintain an accurate list of
the PDSCs, and had not obtained the operating budget of each of the PDSCs to evaluate cost
per beneficiary.

USAID/Haiti and FHI targeted the opening of 80 PDSCs because the mission and FHI based
this number on the population in the targeted areas. However, officials acknowledged that
public health data on Haiti’s population is weak and that there needs to be a reevaluation of the
number of PDSCs and their locations.1 FHI officials also acknowledged that a reevaluation of
the number of PDSCs is needed to determine whether the operating cost is justified, based on
the number of beneficiaries. FHI’s midterm evaluation acknowledged that there is no consistent
strategic rationale for the location of existing PDSCs, including the density of beneficiary
populations.

Unless a proper assessment of the number of PDSCs is performed, USAID/Haiti could be
funding activities that are not warranted and therefore may not be achieving the greatest
possible impact from the project funds spent. Furthermore, since the current project budget
assumes the establishment of 80 PDSCs, a reduction in this number may free up project funds
for the other project targets. Therefore, this audit makes the following recommendations.

      Recommendation 1. We recommend that USAID/Haiti complete and document a
      needs assessment and cost-benefit analysis to determine the correct number and
      appropriate location for the Community Health and AIDS Mitigation Project’s community
      service delivery points.


1
    The original number of required PDSCs was 104, later reduced to 80 for budget reasons.

                                                                                               4
   Recommendation 2.           We recommend that USAID/Haiti, after conducting the
   assessment and analysis, modify the agreement with Family Health International in
   writing to reflect the changes in the number of community service delivery points and
   other major project targets and adjust the budget and resources accordingly.

Partner Did Not Implement
Capacity-Building Strategies for
Subrecipients
According to the cooperative agreement, FHI activities were to strengthen the organizational,
leadership, and technical capacity of CBOs that would manage many of the PDSCs. FHI would
use proven strategies for assessing the capacity of the subrecipients and develop capacity-
building plans with benchmarks, staffing plans, and budgets that could be monitored throughout
the project. Furthermore, FHI would utilize lessons learned throughout the project to ensure
that each subrecipient consistently adopted best practices for service delivery. Subrecipients
that proved successful in accomplishing their capacity-building plans would be eligible for
increased funding in the following year. To ensure timely development of subrecipients’
individually tailored capacity-building plans and monitor their progress in achieving benchmarks,
FHI planned to hire a senior program officer to provide necessary oversight.

As of August 1, 2011, CBOs were managing 32 of the 44 PDSCs, with the rest managed by
nongovernmental organizations (NGOs). However, there was no evidence that FHI developed
capacity-building plans for CBOs as required by the agreement. For example, FHI had yet to
hire the senior program officer responsible to oversee and monitor the implementation of
capacity-building plans. Furthermore, while FHI conducted initial evaluations to ascertain each
CBO’s eligibility to manage a PDSC, the formal capacity-building plans with benchmarks were
never established.

Moreover, FHI had not conducted a lessons learned exercise to share best practices in
managing PDSCs, which might help avoid unnecessary delays and challenges. Some of the
CBOs are new to the health sector and, therefore, have limited experience serving their
communities with this type of HIV/AIDS support program. The CBOs and NGOs just starting to
implement project activities were developing their own processes and procedures, and FHI was
providing limited assistance. As a result, there was notable variation in procedures and skill
levels among the PDSCs in operation during audit staff site visits.

According to FHI officials, the planned capacity-building efforts lagged because FHI had
focused on training and curriculum development. Therefore, none of the planning for the CBOs,
including benchmarks for capacity building, had been developed or implemented.

Because FHI did not implement the capacity-building activities as described in the agreement,
PDSCs may not be operating to their full potential or as efficiently as possible. To correct this
situation, this audit makes the following recommendations.

   Recommendation 3.           We recommend that USAID/Haiti require Family Health
   International to implement capacity-building activities, with particular emphasis on
   sustainability, leadership, management, lessons learned, and monitoring and evaluation,
   as defined in the agreement.



                                                                                               5
   Recommendation 4.            We recommend that USAID/Haiti instruct Family Health
   International in writing to implement best practices and lessons learned at all community
   service delivery points.

Performance Indicators and
Reported Results Provide Limited
Information on Project Progress
According to FHI’s cooperative agreement, monitoring and evaluation are critical components
for assessing project performance, designing and redesigning project implementation strategies,
and reporting project results. USAID’s agreement with FHI specified indicators to measure the
impact of the project interventions. In addition, in November 2009, FHI submitted a proposed
performance monitoring plan (PMP) framework consisting of over 80 indicators that it planned to
track during the project. To generate a baseline for the project’s outcomes, FHI planned to
conduct an assessment during the first quarter of the project and combine data from numerous
sources; according to FHI, it was to establish a working group to develop this baseline.

However, FHI was significantly delayed in implementing its monitoring and evaluation activities,
resulting in dependence on the indicators specified in the cooperative agreement. These
indicators proved not to be useful; these standard indicators—such as number of deliveries
assisted by a skilled birth attendant—measured facility-based outcomes and were therefore
more relevant for hospitals or clinics focused on HIV/AIDS. The project, on the other hand, is a
community-based project servicing six technical health areas. When it became apparent that
the indicators identified in the agreement did not fit the project model, new indicators needed to
be developed, significantly delaying use of appropriate indicators to measure the project’s
progress. The final PMP for the project was not approved by the mission until July 2011, and as
of August 2011, 27 months into the project implementation, the baseline for these indicators had
not been established.

Even after the PMP was approved, both FHI and mission officials raised concerns about the list
of indicators, noting that some were still poorly defined or hard to track. Officials noted that the
PMP does not capture data on 4 of the 15 key activities because either the indicators are
deficient or the needed data was not being collected and reported. As of the audit, FHI was still
struggling to report data accurately. For example, the second annual work plan contained
several errors related to the results for the first year and to second-year targets.

A major reason for the delay in developing indicators was that FHI did not have a monitoring
and evaluation staff in place until almost a year after the project started. As a result, the project
did not establish indicators until the third quarter of fiscal year (FY) 2011.

Lack of thorough and accurate reporting on activities makes it difficult for the mission to manage
the project effectively and ensure that it is achieving its objectives. As a result, we recommend
the following.

   Recommendation 5. We recommend that USAID/Haiti review existing indicators and
   activity reporting in writing, to determine whether the mission is receiving consistent,
   accurate, and useful information regarding the project’s status and impact. If not, the
   mission should develop and implement a corrective action plan.



                                                                                                   6
Partner Did Not Standardize
Monitoring and Evaluation Among
Community Service Delivery
Points
According to the project’s PMP, FHI’s monitoring and evaluation personnel were expected to (1)
conduct data quality assessments to ensure the quality, validity, and reliability of the data
collected, (2) discuss the findings and send a report on progress, potential concerns, and
additional or unexpected opportunities, (3) meet with the respective technical or program
officers to review and analyze the results data, and (4) conduct site visits to ensure that data
collection is occurring and that the information transmitted is valid and reliable. According to
the monitoring and evaluation plan, FHI was to ensure unified and standardized systems and
processes to support a streamlined and user-friendly approach building on in-country systems
and tools to avoid parallel systems and redundancies.

The audit determined that FHI did not effectively standardize the monitoring and evaluation plan
across all of the PDSCs or provide minimal tools to assist the PDSCs in the data collection
process. For example:

	 Many of the PDSCs had difficulty supporting the results on indicators and could not explain
   the variations between the reported data and the documentation that was used to support
   the data. Except for one PDSC that had been open for less than 5 months and whose
   enrollment was less than 100 at the time of audit, the PDSCs visited had errors in their
   validated indicators or had data that could not be tested because FHI had not developed a
   methodology for tracking reported data to source data.

	 PDSCs used three main registries to track beneficiaries enrolled and services provided. The
   three registries—for people living with HIV/AIDS, orphans and vulnerable children, and other
   beneficiaries—are official Ministry of Public Health and Population registration books
   developed with the help of USAID, FHI, and other partners to track and report on indicators.
   However, the PDSCs were not consistently entering data regarding beneficiaries into each
   of these registries, making it difficult, if not impossible, to consolidate project data.

	 Each PDSC had its own method of using sign-in sheets to track and document activities.
   Important information needed for internal controls—such as dates, type of services or
   activities, and signatures—was also missing. Similarly, each PDSC used its own method to
   report and track key services, such as transportation and school fees paid. For example,
   school fee payments are made and recorded in an irregular manner, raising questions about
   the accuracy of PDSC reporting.

	 Minimal data quality assessment was done, and there was no discussion of the findings.

With such variation at each PDSC, it is difficult to validate and consolidate data. Furthermore,
the complex organization of the registry books requires staff to spend a great deal of time
maintaining them and makes it difficult to report consistently and accurately on indicators.

This situation persists in part because FHI did not develop standard operating procedures for
the PDSCs until January 2011. These standard procedures were intended to provide all the
project partners with a common approach to project implementation and integrated community


                                                                                              7
care, including a standard list of services. Yet even after their introduction, there was no
evidence that the standard procedures were being implemented and used. FHI officials and
subrecipients agreed that the procedures provided to the implementers may be too detailed in
some respects and may not address all service areas.

Although the project officer at each department in charge of monitoring and evaluation is
expected to validate the indicator data at each PDSC monthly, officers were not doing so
regularly.

The numerous errors in reported results on indicators and lack of standardization in the use of
tools and registries could prevent the project from achieving its objectives. Furthermore, the
lack of standard documentation, procedures, and understanding of the guidance results in
difficulty in validating and consolidating data reported for the project. Therefore, the audit
makes the following recommendations.

   Recommendation 6. We recommend that USAID/Haiti, in collaboration with the
   Ministry of Public Health and Population, evaluate the three registry books to determine
   what modifications they need to track enrollees effectively, and make the modifications
   to the books.

   Recommendation 7.          We recommend that USAID/Haiti direct Family Health
   International in writing to develop standardized procedures and documentation to
   implement at each of the community service delivery points to assist in tracking and
   reporting on indicators.

   Recommendation 8.           We recommend that USAID/Haiti direct Family Health
   International in writing to conduct data quality assessments, as described in the
   agreement, and provide data validation monthly and quarterly, along with documentation
   of site visits performed, issues identified with data validation, actions taken to resolve
   issues, and training conducted on monitoring and evaluation.

USAID and Partner Did Not Ensure
Proper Approvals of Subawards
According to 22 CFR 226.25(c)(8), for nonconstruction awards, recipients shall request prior
approvals from the USAID agreement officer (AO) for the subaward, transfer or contracting out
of any work under an award, unless described in the application and funded in the approved
budget of the award. In addition, according to ADS 303.3.11(c)(2), the agreement officer’s
technical representative (AOTR) is to be substantially involved with subawards and should
agree with the substantive provisions of the subawards. Furthermore, according to the terms of
the cooperative agreement, FHI must obtain approval of all subawards by the AO.

USAID/Haiti did not comply in all respects with the aforementioned regulation and policy. The
audit reviewed 13 subawards and noted the following:

	 The AO confirmed that FHI is required to have AO approval on all subawards and that the
   current AOTR designation letter does not give the AOTR authority to approve subawards
   for the project. Yet in four cases the AOTR approved the subawards.



                                                                                                8
	 USAID provided initial approval for four of the subawards for a 6-month period; after that,
   FHI extended the awards (three awards with increases) with no approval from USAID.

	 No record of USAID approval was found for one of the subawards.

FHI stated that, because several of the subawardees were in the original budget, FHI did not
seek additional approval from the mission. However, the agreement referenced only CRS and
ICC. Because the other subawardees were not included, the agreement officer was required to
approve each.

Subawards were issued without the proper approval by the AO because of confusion within FHI
and USAID/Haiti regarding the approval requirements. For example, FHI’s grants manual did
not accurately reflect USAID policy for subawards, stating that the AOTR had authority to
approve subawards for FHI that were $500,000 or less. In addition, the AOTR designation letter
was revised multiple times, one revision including clear authority for subaward approvals. (The
current designation letter does not contain any authority to approve subawards.)

As a result, some of the subawardees working on the project have not received appropriate
reviews and approvals, and USAID/Haiti’s Office of Financial Management may not have
conducted payment verification review for these subawardees. Furthermore, it is possible that
the mission’s other programs may have similar problems regarding subaward approvals.

   Recommendation 9. We recommend that USAID/Haiti’s Office of Acquisition and
   Assistance review each subaward issued by Family Health International to confirm that
   the subaward received appropriate review and approval by an authorized official in
   accordance with the agreement and relevant guidance and document the results. In
   addition, we recommend that the Office of Financial Management conduct payment
   verification of these subawards.

   Recommendation 10. We recommend that USAID/Haiti’s Office of Acquisition and
   Assistance review existing contracting officer’s technical representative and agreement
   officer’s technical representative designation letters to confirm that the letters provide
   appropriate authorities and approval thresholds for subawards, and document results.

Partner Did Not Establish
Memorandums Between
Community Service Delivery
Points and Health Facilities
According to the cooperative agreement, the project was expected to build consensus around
the integrated HIV/AIDS community care concept among key stakeholders and partners. This
would bring together all those who provide support and care for people living with HIV/AIDS,
such as the Ministry of Public Health and Population and representatives from hospitals and
clinics. The project was also expected to strengthen and expand referrals between health-care
providers and providers of social services. This would require developing of a list of services
and resources available in each locality and maintaining an efficient referral and counter-referral




                                                                                                 9
process2 among the partners. Efficient coordination among providers would reduce the number
of patients dropping out of the system by increasing access to comprehensive services.

Auditors found little evidence that efficient coordination was occurring among key stakeholders,
especially between the health facilities and PDSCs. Each PDSC is associated with at least one
health facility, such as a hospital or clinic, in order to serve beneficiaries associated with one of
the project’s six focused health areas. However, when the project’s PDSCs opened in some
communities, the corresponding health facilities resisted working with the PDSCs. Many of the
health facilities already had established their own support groups and community service
projects; therefore, PDSCs were viewed as a threat that might result in fewer resources.
Furthermore, there was minimal evidence of cooperation between the health facilities and the
Ministry of Public Health and Population. Those working at the department level of the Ministry
did not understand the PDSC model or how it supports the Government of Haiti’s strategic plan
to combat HIV/AIDS. FHI and its partners had to set up meetings to explain the benefit of the
project.

Poor coordination between PDSCs and health facilities was evident in other areas. For
example, during interviews at health facilities regarding the referral process, many
administrators acknowledged they were unaware of the activities and psychosocial services that
PDSCs could offer their patients. Furthermore, several PDSC officials stated that they have
difficulty obtaining the necessary counter-referral forms from health facilities to track patients
referred and ensure that services recommended were actually received.

Except for guidelines on the counter-referral process, which should be utilized by all PDSCs,
there are no clear guidelines establishing the expected relationship between PDSCs and health
facilities. As of August 2011, only one PDSC had formalized its relationship with its partnering
hospital by establishing a memorandum of understanding.

These problems occurred because coordination with health facilities proved more difficult than
anticipated during the initial phase of the project, leading to misunderstandings. However, FHI
and its partners recognize that the partnership between the PDSCs and health facilities needs
to improve, especially the counter-referral process. To attempt to address this issue, the project
recently started hiring liaison agents at some of the PDSCs to work with their corresponding
health facility to improve the partnership. At the time of the audit, PDSCs were still struggling to
figure out how to utilize the new role of the liaison agent effectively to better serve the PDSCs
and health facilities, assist patients referred to the hospital, and identify patients that can be
referred to the PDSC for psychosocial services.

The limited cooperation between the health facilities and the Ministry can create delays, waste
resources, and prevent the project from achieving the overall goal and objectives of the project.
Memorandums of understanding can assist both the PDSCs and health facilities in
understanding what the partnership expectation should be, as well as what services each will
offer. To improve this vital partnership, we make the following recommendations.

    Recommendation 11. We recommend that USAID/Haiti work with Family Health
    International to establish memorandums of understanding between health facilities and
    community service delivery points, detailing roles and responsibilities, expectations, and
    monitoring channels.

2
  A counter-referral is the process by which the service provider (hospital or clinic) sends the client or
client information back to the PDSC with details about the services or treatment provided.

                                                                                                       10
Partner Did Not Implement Its
Environmental Plan or Develop a
Procurement Plan for the Project
According to ADS 596, internal controls are policies, procedures, and tools used to reasonably
ensure that programs achieve their intended results and that resources are used in accordance
with USAID’s mission. Two areas in which FHI was to develop such policies and procedures
were the following:

	 Environmental Planning. According to USAID/Haiti’s Initial Environmental Examination for
   health, an environmental mitigation plan and monitoring report should be prepared by the
   implementing partners for activities and future activities that have a potential negative
   impact on the environment, such as procurement and management of public health
   commodities, renovation activities, and rehabilitation of water supplies and sanitation
   facilities. The environmental mitigation plan should be approved by the AOTR and the
   mission environmental officer. To protect against negative environmental impact, the project
   developed an environmental plan in December 2009. It states that although almost all
   refurbishments will be done to existing buildings, an environmental site assessment will be
   required because building use may change, and the refurbishment itself may produce a
   different type of waste. Furthermore, at each of the sites (PDSCs), “baseline conditions” will
   be documented by the use of a standard environmental assessment form.

	 Procurement. According to the project agreement, FHI was expected to establish a
   program, to be approved by USAID, for the receipt, use, maintenance, protection, custody,
   and care of equipment, materials, and supplies for which it has custodial responsibility,
   including the establishment of reasonable controls to enforce such a program. This includes
   maintaining a record of such items.

The audit found that, as of August 2011, FHI had not fully implemented these two control
activities. Review of documentation and interviews disclosed that FHI did not complete the
environmental assessment form for any of the 44 PDSCs. In addition, although FHI stated in its
first quarterly report that it would complete a procurement plan by September 20, 2009 (which
would incorporate procurements and rental agreements at all sites), FHI had not established or
submitted the plan for USAID approval. According to FHI officials, initially each PDSC received
$11,000 for rent and equipment with no specific guidance on the procurement process.

When auditors asked FHI why no action had been taken to address the environmental and
procurement plans, FHI officials indicated that they did not know that either plan was needed or
what it entailed, or they thought that some plan requirements were not applicable to the project’s
PDSC model. Mission officials were aware that the environmental plan existed but did not do
any follow-up to ensure that FHI implemented the plan and were not aware of any procurement
plan.

Without an environmental plan, PDSCs lacked awareness of their responsibilities for mitigating
environmental impact, including waste. Without a procurement plan and sufficient oversight by
USAID/Haiti, the project may have adopted inefficient purchasing practices and lost equipment.
Therefore, the audit makes the following recommendations.

   Recommendation 12.          We recommend that USAID/Haiti (1) reevaluate the
   environmental plan to determine what is applicable to community service delivery points,

                                                                                               11
and document results, (2) complete the environmental assessment form for each
existing community service delivery point sites, and (3) establish and implement a
process to verify that any future environmental assessments are conducted where
needed.

Recommendation 13.            We recommend that USAID/Haiti direct Family Health
International in writing to train key personnel to implement the Community Health and
AIDS Mitigation Project’s environmental plan.

Recommendation 14.        We recommend that USAID/Haiti require Family Health
International to develop a procurement plan that is approved by the mission and
implemented in the Community Health and AIDS Mitigation Project.




                                                                                        12
EVALUATION OF MANAGEMENT
COMMENTS
The USAID/Haiti mission director provided comments in response to the report’s findings and
recommendations. Our evaluation of management comments follows.

Recommendation 1. We recommend that USAID/Haiti complete and document a needs
assessment and cost-benefit analysis to determine the correct number and appropriate location
for the Community Health and AIDS Mitigation Project’s community service delivery points.

USAID/Haiti agreed with our recommendation and stated that an assessment of all community
service delivery points was completed in the fourth quarter of 2011. As a result, of the
assessment, a decision was made to close community service delivery points where referral
services were unavailable. Furthermore, FHI has directed its subrecipients to restructure their
FY 2012 budgets so that all activity expenses can be tracked, allowing FHI to conduct a cost-
benefit analysis by the end of the third quarter of 2012. On the basis of the planned actions, we
consider that a management decision has been reached on Recommendation 1.

Recommendation 2. We recommend that USAID/Haiti, after conducting the assessment and
analysis, modify the agreement with Family Health International in writing to reflect the changes
in the number of community service delivery points and other major project targets and adjust
the budget and resources accordingly.

USAID/Haiti agreed with our recommendation. The mission planned to work with FHI to
analyze the assessment of the correct number of community service delivery points and modify
the agreement to reflect that assessment by December 2011. On the basis of the planned
actions, we consider that a management decision has been reached on Recommendation 2.

Recommendation 3. We recommend that USAID/Haiti require Family Health International to
implement capacity-building activities, with particular emphasis on sustainability, leadership,
management, lessons learned, and monitoring and evaluation, as defined in the agreement.

USAID/Haiti agreed with our recommendation. To address this recommendation, FHI hired a
capacity-building expert to develop and provide oversight of capacity-building activities and
presented the outlined its capacity-building strategy to its partners during the annual partners
meeting in October 2011. The strategy will be presented for approval to the agreement officer’s
technical representative by December 15, 2011, with implementation expected to begin in
January 2012. On the basis of the planned actions, we consider that a management decision
has been reached on Recommendation 3.

Recommendation 4. We recommend that USAID/Haiti instruct Family Health International in
writing to implement best practices and lessons learned at all community service delivery points.

USAID/Haiti agreed with our recommendation. According to the mission, FHI will regularly
share best practices at meetings throughout the life of the project, and USAID/Haiti will monitor
the implementation of best practices at technical team meetings, implementing partners’
meetings, and monthly departmental coordination meetings. This process will be in place by


                                                                                              13
March 31, 2012. On the basis of the planned actions, we consider that a management decision
has been reached on Recommendation 4.

Recommendation 5. We recommend that USAID/Haiti review existing indicators and activity
reporting in writing, to determine whether the mission is receiving consistent, accurate, and
useful information regarding the project’s status and impact. If not, the mission should develop
and implement a corrective action plan.

USAID/Haiti agreed with our recommendation and conducted a review of the indicators in
October 2011. However, the comments did not indicate when the meeting with the monitoring
and evaluation teams and the agreement officer’s technical representative of the project would
be held to develop a corrective action plan. Therefore, a management decision has not been
reached on Recommendation 5.

Recommendation 6. We recommend that USAID/Haiti, in collaboration with Ministry of Public
Health and Population, evaluate the three registry books to determine what modifications they
need to track enrollees effectively and make the modifications to the books.

The mission agreed with the recommendation and planned to contact the Ministry by formal
letter by December 15, 2011, to initiate efforts to evaluate the registry. On the basis of the
planned actions, we consider that a management decision has been reached on
Recommendation 6.

Recommendation 7. We recommend that USAID/Haiti direct Family Health International in
writing to develop standardized procedures and documentation to implement at each of the
community service delivery points to assist in tracking and reporting on indicators.

USAID/Haiti agreed with our recommendation and planned to send a letter to FHI, directing it to
develop the procedures and documentation described. USAID/Haiti’s monitoring and evaluation
advisers and the agreement officer’s technical representative will work closely with FHI to
ensure that all standardized tools and any new procedures created are available and used
properly at all community service delivery points. This standardization will be done through field
visits in FY 2012, scheduled to begin in December 2011. On the basis of the planned actions,
we consider that a management decision has been reached on Recommendation 7.

Recommendation 8. We recommend that USAID/Haiti direct Family Health International in
writing to conduct data quality assessments, as described in the agreement, and provide data
validation monthly and quarterly, along with documentation of site visits performed, issues
identified with data validation, actions taken to resolve issues, and training conducted on
monitoring and evaluation.

USAID/Haiti agreed with our recommendation. FHI’s monitoring and evaluation team conducted
a data quality assessment in October 2011 to ensure that all indicators were reported
accurately. The team plans to repeat this exercise semi-annually for the rest of the agreement.
FHI also conducted an in-depth internal data quality assessment in November 2011 and
planned to share the results of that assessment with USAID/Haiti in December 2011. On the
basis of the actions taken and planned, we consider that a management decision has been
reached on Recommendation 8.

Recommendation 9. We recommend that USAID/Haiti’s Office of Acquisition and Assistance
review each subaward issued by Family Health International to confirm that the subaward

                                                                                               14
received appropriate review and approval by an authorized official in accordance with the
agreement and relevant guidance, and document the results. In addition, we recommend that
the Office of Financial Management conduct payment verification of these subawards.

Although the mission agreed to review subawards by December 31, 2011, it is not clear that the
proposed actions address all elements of the recommendation, which requires the mission to
confirm that the subaward received appropriate review and approval by an authorized official in
accordance with the agreement and relevant guidance, and document the results. Specifically,
the comments do not state how USAID/Haiti will confirm approvals of subawards. Therefore, a
management decision has not been reached on Recommendation 9.

Recommendation 10. We recommend that USAID/Haiti’s Office of Acquisition and Assistance
review existing contracting officer’s technical representative and agreement officer’s technical
representative designation letters to confirm that the letters provide appropriate authorities and
approval thresholds for subawards and document results.

While USAID/Haiti agreed to review the designation letter of the agreement officer’s technical
representatives of the project, by December 15, 2011, the mission’s comments did not address
reviews of designation letters for other projects. Consequently, no management decision has
been reached on Recommendation 10.

Recommendation 11. We recommend that USAID/Haiti work with Family Health International
to establish memorandums of understanding between health facilities and community service
delivery points, detailing roles and responsibilities, expectations, and monitoring channels.

USAID/Haiti agreed with our recommendation. FHI provided its subrecipients a template for
memorandums of understanding with instructions to have the task completed by the end of first
quarter of FY 2012. On the basis of the action taken, we consider that a management decision
has been reached on Recommendation 11.

Recommendation 12. We recommend that USAID/Haiti (1) reevaluate the environmental plan
to determine what is applicable to community service delivery points, and document results, (2)
complete the environmental assessment form for each of the existing community service
delivery point sites, and (3) establish and implement a process to verify that any future
environmental assessments are conducted where needed.

USAID/Haiti agreed with our recommendation. FHI met with the USAID/Haiti’s environmental
officer and the AOTR in September 2011 and attended a 2-day workshop on environmental
issues, procedures, and compliance. FHI also issued guidance on environmental compliance
during its annual partners’ meeting in October 2011 and plans to conduct environmental
assessments by the end of the second quarter of FY 2012. On the basis of the completed and
planned actions, we consider that a management decision has been reached on
Recommendation 12.

Recommendation 13. We recommend that USAID/Haiti direct Family Health International in
writing to train key personnel to implement the Community Health and AIDS Mitigation Project’s
environmental plan.

USAID/Haiti agreed with our recommendation and stated that by January 2012 FHI would
complete training of 18 staff members who will track the progress of subrecipients’
environmental mitigation efforts. Regular reporting on environmental compliance will

                                                                                               15
 commence by February 2012. On the basis of the mission’s planned actions, we consider that
a management decision has been reached on Recommendation 13.

Recommendation 14. We recommend that USAID/Haiti require Family Health International to
develop a procurement plan that is approved by the mission and implemented in the Community
Health and AIDS Mitigation Project.

USAID/Haiti agreed with our recommendation and stated that on November 7, 2011, FHI
developed and submitted a procurement plan to USAID. However, the comments did not
include a proposed time frame for mission approval of the procurement plan. Therefore, a
management decision has not been reached on Recommendation 14.




                                                                                        16
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards.3 Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The purpose of the audit was to determine whether the activities under USAID/Haiti’s
Community Health and AIDS Mitigation Project were achieving the goal of improving the health
and quality of life of vulnerable families and people living with AIDS, in accordance with the
Government of Haiti’s strategic plan to combat HIV/AIDS.

USAID/Haiti awarded a 5-year, $65 million cooperative agreement to FHI to implement the
Community Health and AIDS Mitigation Project. As of July 1, 2011, USAID/Haiti had obligated
$20.5 million and disbursed $18.1 million for project activities.

RIG/San Salvador conducted audit fieldwork in the Republic of Haiti from July 11 through
August 5, 2011, and covered the activities implemented by FHI from May 1, 2009, to June 30,
2011. In Haiti, fieldwork was conducted at USAID/Haiti, FHI’s country office, the country offices
of CRS and ICC, and the country offices of FHI subawardees—Save the Children, World Vision,
and World Concern. Site visits were conducted at PDSCs in the West Department at Delmas,
Ganthier, and Cabaret; in the Artibonite Department at Saint-Marc and Gonaives; and in the
Northwest Department at Port-de-Paix. In each of the departments, we visited, met, and
interviewed staff at PDSCs, the implementing partner’s Integrated Departmental Project Unit,
and CBOs that manage the PDSCs. We also met with the department head of Haiti’s Ministry
of Public Health and Population in the Northwest Department, and with hospital and clinic staff
in the Northwest and Artibonite Departments. In addition, we also visited with the director of the
International Organization for Migration in Saint-Marc.

As part of the audit, we assessed the significant internal controls used by USAID/Haiti to
monitor project activities and progress, The assessment included controls related to whether
the mission (1) conducted and documented site visits to evaluate progress and monitor quality,
(2) reviewed required and approved plans, (3) reviewed progress reports submitted by FHI and
the planned activities, and (4) reviewed and tested indicators and activities used by FHI and
partners. We also reviewed the mission’s annual certification required by the Federal
Managers' Financial Integrity Act of 1982, to verify whether the assessment cited any relevant
weaknesses. We also reviewed the mission’s Initial Environmental Examination for health and
prior audit reports for any issues related to the audit objective.




3
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).

                                                                                               17
                                                                                     Appendix I


Methodology
To answer the audit objective, we interviewed officials from USAID/Haiti, FHI, CRS, ICC, and
other FHI subawardees. We also reviewed and analyzed relevant documents and data at the
mission, FHI, and PDSCs. Documents included annual work plans, quarterly reports, the
agreement between USAID/Haiti and FHI, subawards, progress and financial data, and other
monitoring and progress reports.

Furthermore, we verified the results of reported indicator data by selecting a judgmental sample
of departments and reviewing documentation at the sites and at FHI's country office. Since the
testing was based on a judgmental, not a statistical sample, the results and conclusions related
to this analysis were limited to the items tested and could not be projected to the entire audit
universe.




                                                                                             18
                                                                                    Appendix II



MANAGEMENT COMMENTS 




MEMORANDUM

DATE:          December 1st, 2011

TO:            Jon Chasson, Regional Inspector General

FROM:          Carleene Dei, Mission Director

RE:           USAID/Haiti response to the audit recommendations detailed in the Regional
Inspector General audit of USAID/HAITI’S COMMUNITY HEALTH AND AIDS
MITIGATION PROJECT (AUDIT REPORT NO. 1-521-12-00X-P)

We acknowledge the audit findings and recommendations made by your office on
USAID/Haiti’s COMMUNITY HEALTH AND AIDS MITIGATION PROJECT (CHAMP),
submitted to the Mission on October 31, 2011. The audit was designed to determine whether
CHAMP was achieving its goal of improving the health and quality of life of vulnerable families
and people living with AIDS in accordance with the Government of Haiti’s strategic plan to
combat HIV/AIDS. The following are the Mission’s response to the recommendations.

Recommendation 1. We recommend that USAID/Haiti complete a needs assessment
and cost-benefit analysis to determine the correct number and appropriate location for
the Community Health and AIDS Mitigation Project’s community service delivery points.

We agree with this recommendation. An assessment of all Point of Delivery of Community
Services (PDSCs) was completed in Q4 FY11 (after the audit fieldwork), which included a
listing of:

           Health clinics linked to PDSC and the network;
           Number of Persons Living with HIV/AIDS (PLHA) enrolled and on Anti-Retroviral
            Therapy (ART) in each site;
           Evidence of a formal linkage (e.g. Memorandum of Understanding , MOU ) with
            health care service providers;
           Target number of PLHA and Orphans and Vulnerable Children (OVC) to be enrolled
            in each PDSC for FY 12;
           Package of services available in each PDSC for FY12 and additional services to be
            provided;

                                                                                             19
                                                                                      Appendix II


          Budget for each PDSC;
          Summary recommendations related to activity improvement provision for each
           PDSC.

General recommendations for improvement of PDSC activities include:

          The need to recruit additional community workers at PDSC sites in order to improve
           zonal coverage; and
          The need to improve and standardize the availability of the package of services at
           PDSCs (with a particular emphasis on livelihood services);

Based on an analysis of the assessment findings, a decision was made to close PDSCs where
referrals to Voluntary Counseling and Testing (VCT), Anti-retroviral (ARV), and Prevention of
Mother to Child Transition (PMTCT) services were unavailable, as local linkages to these
services was a mandate of this project.

Regarding the cost analysis: As a result of the RIG audit and an internal Family Health
International (FHI, the USAID grantee) audit conducted in July 2011, FHI has directed its
subgrantees to restructure FY12 budgets (as well as subsequent budgets) so all expenses of
PDSC activities can be tracked effectively. FHI will conduct a cost/benefit analysis by the end
of Q3 2012.

Recommendation 2. We recommend that USAID/Haiti, after conducting the
assessment and analysis, modify the agreement with Family Health International to
reflect the changes in the number of community service delivery points and other major
project targets and adjust the budget and resources accordingly.

We agree with this recommendation. Joint analysis (USAID and FHI/CHAMP) of the
assessment described above will be reflected in a modification to the agreement that will be
completed in December 2011.

Recommendation 3. We recommend that USAID/Haiti require Family Health
International to implement the capacity-building activities, with particular emphasis on
sustainability, leadership, management, lessons learned, and monitoring and evaluation, as
defined in the agreement.

We agree with this recommendation. FHI/CHAMP has hired a capacity-building expert who is
tasked to develop and provide oversight of capacity building activities. FHI/CHAMP presented
the general process and outline for development of a capacity-building strategy to its partners at
the Annual Partners Meeting, held on 5-7 October 2011. The capacity-building strategy will be
presented to the Agreement Officer Technical Representative (AOTR) by December 15, 2011 for
approval.

Implementation of the capacity-building strategy will begin in January 2012 and is expected to
include formal and on-the-job training.


                                                                                                 20
                                                                                        Appendix II


Recommendation 4. We recommend that USAID/Haiti instruct Family Health
International to implement best practices and lessons learned at all community service
delivery points.

We agree with this recommendation. FHI/CHAMP will share best practices at:
           Monthly, expanded Technical Team meetings (for all key partners) starting
              November 10, 2011;
           Implementing partners’ meeting planned for the 2nd trimester of FY12; and
           Monthly Departmental level UCD (Departmental Coordination Unit) meetings
              starting January 15, 2012.

USAID will monitor implementation of best practices and lessons learned during field visits by
the AOTR to PDSCs.

Recommendation 5. We recommend that USAID/Haiti review existing indicators and
reporting on activities to ensure that the mission is receiving consistent, accurate, and
useful information regarding the project’s status and impact.

We agree with this recommendation. The USAID/Haiti Monitoring and Evaluation (M&E) team
will meet with the FHI M&E team following submission of the FY12 PMP to the AOTR.
Review of indicators has been conducted during the Data Quality Assessment (DQA) done in
October 2011 to ensure data is accurate and of good quality.

Recommendation 6. We recommend USAID/Haiti, in collaboration with Ministry of
Public Health and Population, evaluate the three registry books to determine what
modifications they need to track enrollees effectively and make the modifications.

While we agree with the intent of this recommendation, USAID does not have any control over
changing or modifying the Ministry of Health registry books. However, USAID can offer to
evaluate with MOH and provide feedback on MOH/GOH registry books. USAID will extend
this offer to the MOH by formal letter by December 15, 2011.

Recommendation 7. We recommend USAID/Haiti direct Family Health International to
develop standardized procedures and documentation to implement at each of the
community service delivery points to assist in tracking and reporting on indicators.

We agree with this recommendation. USAID/Haiti will send a letter to FHI directing the
recipient to develop the procedures and documentation described in Recommendation 7. Also,
the USAID M&E Advisor and the AOTR will work closely with the FHI-CHAMP technical staff
to ensure that all standardized tools (data collection forms, registers and guidelines)- both those
already developed jointly with John Snow International /MEASURE (JSI/MEASURE) and any
new procedures created, are available and being used properly in all PDSCs. Accordingly, the
AOTR and USAID M&E Advisor will carry out a systematic series of field visits in FY12 to
ensure this recommendation and all other monitoring issues identified in this audit are addressed
effectively. The AOTR will present the FY12 monitoring plan for CHAMP to the USAID
PEPFAR team leader on November 30, 2011 and monitoring will begin in December 2011.

                                                                                                21
                                                                                     Appendix II



Recommendation 8. We recommend USAID/Haiti direct Family Health International to
conduct data quality assessments, as described in the agreement, and provide data
validation monthly and quarterly, along with documentation of site visits performed,
issues identified with data validation, actions taken to resolve issues, and training
conducted on monitoring and evaluation.

We agree with this recommendation. The FHI M&E team conducted Data Quality Assessments
in October, 2011 to ensure that all the indicators in the CHAMP annual report (FY11) were
accurate. This exercise will be repeated on a semi-annual basis for the life of the agreement.
FHI/CHAMP is also conducting a more in depth internal DQA in November 2011. Results of
this DQA will be submitted to the USAID M&E team in December 2011 (within their annual
report) for review.

Recommendation 9. We recommend that USAID/Haiti’s Office of Acquisition and Assistance
review all subawards issued by Family Health International to confirm that the subaward
received appropriate review and approval by an authorized official in accordance with the
agreement and relevant guidance, and document the results. In addition, the Office of Financial
Management conducts and document payment verification of these subawards

At issue here is the interpretation of 22 CFR 226.25(c) (8), which is applicable to this award to
FHI as a US-Based NGO. 22 CFR 226.25(c) (8) states “Unless described in the application and
funded in the approved budget of the award recipients shall request prior approval from the
USAID Agreement Officer for…the sub-award, transfer or contracting out of any work under an
award.” Based on guidance from M/OAA's Policy Division at USAID Headquarters, Agreement
Officer (AO) approval should be based on whether the sub-award was properly made and
associated costs are reasonable, allowable and allocable.

ADS 303.3.11-c regarding substantial involvement makes clear the AO should explicitly
define more specific ways USAID wants to be involved in the approval of sub-grants beyond the
requirements of 22 CFR 226.25. If the AO wishes to preserve any further approval rights for
sub-awards or contracts beyond what is already stated in 22 CFR 226.25(c)(8), the AO must
explicitly state USAID’s involvement in the substantial involvement provision of the agreement.
 In this award, there is no substantial involvement regarding USAID joint participation or
collaboration in the execution of sub-wards.

Therefore the Office of Acquisition and Assistance (OAA) has requested that the AOTR serve as
primary point of contact to ask FHI to provide data on all sub-awards that have been incurred to
date under FHI's prime award; FHI will therefore provide a list of sub-awards and corresponding
approvals from Cognizant Agreement Officer to date. An OAA Acquisition and Assistance
(A&A) Specialist will work with the AOTR to corroborate OAA's own records for each sub-
award made to date. The standard for approval will be:
     whether the sub-award was made competitively, and if not what is the basis for non-
       competition?
     what is the amount of the sub-award?
     what work is to be performed under the sub-award?


                                                                                              22
                                                                                           Appendix II


      is the total estimated amount of the sub-award reasonable?

Based on the information FHI will provide, OAA will corroborate its records regarding 1) what
sub-awards were properly approved under FHI's cost application and corresponding approved
final budget; 2) for later ad hoc sub-awards approval requests, what do the approval documents
from the AO stipulate in the approval; and 3) what sub-awards were not approved based on the
OAA/P standard described above. Once a sub-award is approved as proper, allocable, allowable
and reasonable, FHI should not be required to obtain further approval UNLESS it is making a
NEW sub-award or adding money to an existing sub-award.

The AOTR and OAA expect to have this exercise completed before the end of the calendar year.

The draft of the Payment Verification Report on Family Health International from the period of
May 1, 2009 to June 30, 2011 was received at the Office of Financial Management (OFM) on
November 24, 2011

Recommendation 10. We recommend that USAID/Haiti’s Office of Acquisition and
Assistance review existing contracting officer technical representative and agreement
officer technical representative designation letters to confirm that the letters provide
appropriate authorities and approval thresholds for sub-awards.

OAA will work with the AOTR to review all AOTR designation letters issued for this award to
determine what responsibilities were properly delegated to the AOTR, especially regarding any
funding thresholds for the approval of individual sub-awards. Then OAA will issue a new
AOTR designation letter, based on OAA's latest ADS 303 policies, but consolidating all prior
proper delegations of authority to ensure the AOTR designation letter in effect is consistent with
what was previously delegated. The new AOTR designation will make clear that all prior
delegations letters are null and void. OAA and the AOTR expect to have this exercise completed
before December 15th, 2011

Recommendation 11. We recommend that USAID/Haiti work with FHI to establish
memorandums of understanding between health facilities and community service
delivery points, detailing roles and responsibilities, expectations, and monitoring
channels.

We agree with this recommendation. FHI CHAMP partners have been given a model MOU and
instructions to have this task completed by the end of Q1 FY12.

Recommendation 12. We recommend that USAID/Haiti (1) reevaluate the
environmental plan to determine what is applicable to community service delivery points, (2)
complete the environmental assessment form for each of the existing community service delivery
point sites and (3) establish a process to verify that any future environmental assessment are
conducted where needed.

We agree with this recommendation. In response to this recommendation, FHI/CHAMP met with
the USAID/Haiti Mission Environmental Officer and AOTR in early September 2011.


                                                                                                   23
                                                                                     Appendix II


FHI/CHAMP then attended a two-day workshop (the USAID/ Health Recovery Initiative
Environment Workshop) sponsored by USAID on environmental issues, procedures and
compliance. Next, FHI/CHAMP issued guidance on environmental compliance to partners at its
Annual Partner’s Meeting of 5-7 October 2011, explaining requirements to partners and the
Departmental Coordination Unit (UCD) teams.

FHI/CHAMP plans to conduct environmental assessments of all PDSCs by the end of Q2 of
FY12.

Recommendation 13. We recommend that USAID/Haiti direct Family Health
International to train key personnel to implement the Community Health and AIDS
Mitigation Project’s environmental plan.

FHI/CHAMP will organize, as appropriate, trainings for UCD and Integrated Departmental
Projects Unit (IDPU) staff to follow-up with environmental mitigation plans and to annually
monitor and report any changes in activity status. By January 2012, USAID/CHAMP will have
trained 18 staff of sub-partners, as well as ensured that two project staff members on-board are
able to track the reports and issue recommendations to sub-partners. Regular reporting on PDSC
environmental compliance will commence by February 2012.

Recommendation 14. We recommend that USAID/Haiti require Family Health
International to develop a procurement plan that is approved by the mission and
implemented in the Community Health and AIDS Mitigation Project.

We agree with this recommendation. FHI/CHAMP has developed a procurement plan
(retroactively from project start-up) for all purchases over $500 and submitted it to USAID on
November 7th 2011.

         SUMMARY TIMELINE OF USAID AUDIT RESPOSE ACTIONS
Recommendation 1 Third quarter FY 12
Recommendation 2 December 2011
Recommendation 3 December 15, 2011 as delivery of capacity building strategy
Recommendation 4 2nd trimester of 2012
Recommendation 5 Done- USAID M&E DQA assessment of CHAMP October 2011

Recommendation 6       N/A
Recommendation 7       4th quarter FY 12
Recommendation 8       USAID M&E DQA assessment October 2011 /
                       Internal DQA report from FHI/CHAMP on December 2011
Recommendation 9       December 31st 2011
Recommendation 10      December 15, 2011
Recommendation 11      1st quarter of FY 12
Recommendation 12      2nd quarter of FY 12
Recommendation 13      1st quarter FY 12
Recommendation 14      Submission of procurement plan: Completed- Submitted to USAID
                       on November 7th , 2011

                                                                                                 24
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
